                                                SINGLE AUDIT
                                                QUALITY CONTROL REVIEW

Office of Inspector General—Office of Audit 





                                                RECOVERY ACT: QUALITY CONTROL REVIEW
                                                SINGLE AUDIT OF HUMAN RESOURCES AND
                                                OCCUPATIONAL DEVELOPMENT COUNCIL OF
                                                PUERTO RICO FOR YEAR ENDED JUNE 30, 2009




                                                                   Date Issued: September 29, 2010 

                                                                   Report Number: 18-10-008-03-390

                                           U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC 20210


September 29, 2010

                        Assistant Inspector General’s Report

Mr. Jose E. Diaz-Martinez
President
CPA Diaz-Martinez, PSC
P.O. Box 8369
Caguas, PR 00726-8369

Dear Mr. Diaz:

The purpose of this report is to formally advise you of the results of a Quality Control
Review (QCR) the U.S. Department of Labor (DOL), Office of Inspector General (OIG),
conducted of the following audit completed by Certified Public Accountant (CPA) Diaz-
Martinez, P.S.C. (the Firm), under the Federal Single Audit Act (the Act) and Office of
Management and Budget (OMB) Circular A-133 (A-133):

      Single Audit of the Human Resources and Occupational Development
      Council (Council) For the Year Ended June 30, 2009

Our review included the following major programs:

Table 1: DOL Major Programs Reviewed
                                                            Catalog of
                                                              Federal
                                                             Domestic
                                                           Assistance         DOL Funds
                                                               (CFDA)        Reported as
Major Program                                                 Number           Expended
Workforce Investment Act (WIA) Cluster                          17.258      $134,394,693
                                                                17.259
                                                                17.260
American Recovery and Reinvestment Act                          17.258        $7,180,552
(ARRA) – WIA Cluster                                            17.259
                                                                17.260
Total DOL WIA Funds Reported As Expended                                    $141,575,245

Since our review included ARRA funds, we are required by ARRA to post this report on
our website www.oig.dol.gov and link to the Recovery Accountability and Transparency
Board’s website www.recovery.gov.



                                             1                                  Single Audit QCR
                                                                             Puerto Rico HRODC
                                                                  Report Number: 18-10-008-03-390
                                            U.S. Department of Labor – Office of Inspector General


The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

The audit work performed by the Firm over compliance with requirements applicable to
each major program and internal control over compliance in accordance with A-133 was
acceptable. However, the audit work performed over financial reporting, including the
Statement of Expenditure of Federal Awards (SEFA), was not acceptable and did not
meet the requirements of the Act, A-133, Government Auditing Standards (GAS), and
Generally Accepted Auditing Standards (GAAS). Additionally, the Firm did not ensure all
significant information in the notes to the basic financial statements (financial statement
notes) and the Management Discussion and Analysis (MD&A) was completely,
accurately, and consistently presented.

Additional work is required to bring this audit into compliance with the requirements of
the Act. Specifically, the Firm needs to follow the GAAS notification requirements for
subsequent discovery of facts existing at the date of the auditor’s report and any
additional requirements provided in GAS. The Firm should determine the need to report
internal control findings related to the Council’s procedures for determining the proper
application of Generally Accepted Accounting Principles (GAAP) and procedures for the
proper determination of amounts to be presented in the SEFA. These findings should
also be reported in the Schedule of Findings and Questioned Costs.

A-133, Section .400(a)(5), requires us to advise the auditor and, where appropriate, the
auditee of any deficiencies found in the audits when the deficiencies require corrective
action by the auditor. When advised of deficiencies, the auditee shall work with the
auditor to take corrective action. If corrective action is not taken, we are responsible for
notifying the auditor, the auditee, and applicable Federal awarding agencies and
pass-through entities of the facts and make recommendations for follow-up action.
Major inadequacies shall be referred to appropriate State licensing agencies and
professional bodies for disciplinary action. Details of our review are provided in the
Enclosure.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure


                                             2                              Single Audit QCR
                                                                         Puerto Rico HRODC
                                                              Report Number: 18-10-008-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                  Enclosure

                            Quality Control Review: 

 Single Audit of the Human Resources and Occupational Development Council, 

  Financial Statements, Schedule of Expenditures of Federal Awards, Reports 

                Required by Government Auditing Standards and 

              OMB Circular A-133 for the Year Ended June 30, 2009 

                              (18-10-008-03-390) 


Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments of
1996, created a single organization-wide financial and compliance audit for state and
local governments, colleges, universities, and not-for-profit organizations that expend
Federal funds equal to or greater than $300,000 in any fiscal year ($500,000 for fiscal
years ending after December 31, 2003).

On December 22, 2009, the Firm issued a single audit report of the Council’s Financial
Statements and Reports Required by GAS and A-133 for the Year Ended June 30,
2009.

Our review included the following major programs:

Table 1: DOL Major Programs Reviewed
                                                                         DOL Funds
                                                                        Reported as
Major Program                                                CFDA         Expended
WIA Cluster                                                 17.258     $134,394,693
                                                            17.259
                                                            17.260
ARRA – WIA Cluster                                          17.258        $7,180,552
                                                            17.259
                                                            17.260
Total DOL WIA Funds Reported As Expended                               $141,575,245

Since our review included ARRA funds, we are required by ARRA to post this report on
our website www.oig.dol.gov and link to the Recovery Accountability and Transparency
Board’s website www.recovery.gov.

Objectives

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements; (2) any
follow-up work is needed; and (3) there are any issues that may require management’s
attention. To address these objectives, we answered the following question:

                                            3                             Single Audit QCR
                                                                       Puerto Rico HROCD
                                                            Report Number: 18-10-008-03-390
                                           U.S. Department of Labor – Office of Inspector General




Did the Firm’s single audit comply with applicable standards and single audit
requirements so that no follow-up work or management’s attention would be needed?

Results

The audit work performed by the Firm over compliance with requirements applicable to
each major program and internal control over compliance in accordance with A-133 was
acceptable. However, the audit work performed over financial reporting, including the
SEFA, was not acceptable and did not meet the requirements of the Act, A-133, GAS,
and GAAS. Additionally, the Firm did not ensure all significant information in the
financial statement notes and the MD&A was completely, accurately, and consistently
presented.

Additional work is required to bring this audit into compliance with the requirements of
the Act. Specifically, the Firm needs to follow the GAAS notification requirements for
subsequent discovery of facts existing at the date of the auditor’s report and any
additional requirements provided in GAS. The Firm should determine the need to report
internal control findings related to the Council’s procedures for determining the proper
application of GAAP and the proper determination of amounts to be presented in the
SEFA. These findings should also be reported in the Schedule of Findings and
Questioned Costs.

A-133 §.400(a)(5), requires us to advise the auditor and, where appropriate, the auditee
of any deficiencies found in the audits when the deficiencies require corrective action by
the auditor. When advised of deficiencies, the auditee shall work with the auditor to take
corrective action. If corrective action is not taken, we are responsible for notifying the
auditor, the auditee, and applicable Federal awarding agencies and pass-through
entities of the facts and make recommendations for follow-up action. Major
inadequacies shall be referred to appropriate State licensing agencies and professional
bodies for disciplinary action.

Did the Firm’s single audit comply with applicable standards and single audit
requirements so that no follow-up work or management’s attention would be
needed?

The Firm’s noncompliance with some auditing standards and single audit requirements
left users of the Council’s financial statements at risk.

The work performed by the Firm on compliance requirements required by the Act and
A-133 was acceptable; however, the Firm’s work on financial reporting did not comply
with all applicable standards and single audit requirements. This noncompliance did not
result in a need for grantor agency involvement.




                                            4                              Single Audit QCR
                                                                        Puerto Rico HROCD
                                                             Report Number: 18-10-008-03-390
                                           U.S. Department of Labor – Office of Inspector General


1. The Firm did not identify a material misapplication of GAAP that required a
   modification of its opinion on the Council’s financial statements and required
   the Firm to report a material weakness in internal control over financial
   reporting and compliance.

The Firm did not demonstrate an adequate understanding of GAAP as it applied to the
recognition of revenue, expenditure and related accounts for governmental funds.
Furthermore, the Firm did not demonstrate an understanding of the Council’s lack of
internal controls over assessing and implementing those principles. Because of its lack
of understanding, the Firm was not aware it needed to modify its opinion on the
Council’s financial statements and issue a material weakness finding on the Council’s
internal control over financial reporting and compliance.

Because of its misapplication of GAAP, the Council misstated accounts receivable,
revenue, amounts payable to subrecipients, and subrecipient expenditures by about
$193 million, $90 million, $126 million, and $67 million, respectively in its financial
statements for the year ended June 30, 2009. The Firm did not properly modify its
opinion on the financial statements based on those misstatements and did not include
the misstatement as an audit finding in the Report on Internal Control and Compliance
and the Schedule of Findings and Questioned Costs.

Using information provided by the Firm, we calculated the approximate amount of
misstated ARRA funding as follows:

            Table 2: Over-Reported ARRA Funding

                                                                        Amount
            Account                                                     (million)
            Accounts receivable                                               $85
            Revenue                                                           $85
            Amounts payable to subrecipients                                  $66 

            Subrecipient expenditures                                         $66


The Firm explained that, based on a 2007 communication with GASB, it believed the
Council’s policy for recognizing WIA grant funds was correct and; therefore, its
unqualified opinion on the financial statements was correct. Firm officials said, in
response to a letter they sent to the Governmental Accounting Standards Board
(GASB), a GASB technical representative told them the Council’s interpretation was
correct. In addition, the Firm said it asked a DOL grant officer to explain at what point
WIA grant funds were available to the Council. The grant officer said the funds were
available at the time the grant was issued and funds were transferred to an account in
the Council’s name in the U.S. Department of Health and Human Service’s Payment
Management System (PMS). In our analysis of the 2007 letter the Firm sent GASB, we
found it stated the Council had met all requirements for revenue recognition found in

                                            5                              Single Audit QCR
                                                                        Puerto Rico HROCD
                                                             Report Number: 18-10-008-03-390
                                           U.S. Department of Labor – Office of Inspector General


Governmental Accounting Standards Board Statement (GASBS) 33, and the funds were
available to the Council.

A key decision point for recognizing revenue as well as expenditures using the modified
accrual basis of accounting is the funds’ availability. Because the Firm told GASB the
funds were available it would have been reasonable for the GASB representative to
agree with the Firm’s interpretation regarding the Council’s policy for recognizing WIA
grant funds. However, in a teleconference with our office and Firm representatives, a
GASB technical representative explained that, in accordance with GASBS 33, if the WIA
funds were not collected during the current period or collected soon after year end to
pay current liabilities, then the funds would not be considered available; and therefore,
should not be recognized as revenue.

GASBS 33, Paragraph 30, states:

      When the modified accrual basis of accounting is used, revenues resulting
      from nonexchange transactions should be recognized …[for] government-
      mandated nonexchange and voluntary nonexchange transactions in the
      period when all applicable eligibility requirements have been met and the
      resources are available.

In addition, the recognition standard presented in the preface of GASBS 33
refers to available resources as those resources that are collected in the current
period or expected to be collected soon enough after the end of the period so
they can be used to pay current liabilities.

WIA grant funds awarded to the Council during the period July 1, 2008, through
June 30, 2009, are available for 3 years, except for ARRA grants which are
available for 2 years. The grant agreements include a provision that the funds
must be expended in accordance with all applicable federal statutes, regulations,
and policies. One important statute that should affect the way the Council
recognizes revenue is the Cash Management Improvement Act (CMIA). CMIA
requires the Council to draw down funds from the PMS only when those funds
will be used to provide program activities soon after being drawn down.

Another reason the Council materially misstated its financial statements and the
Firm did not identify the material misstatements was that the Council and the
Firm had incorrectly interpreted the GASBS 33 eligibility requirement for
reimbursements. Their interpretation was that GASBS 33 requires the grant
recipient to disburse funds before being reimbursed for incurred costs. However,
based on information provided by a GASB technical representative, GASBS 33
should be interpreted as the grant recipient being required to incur costs before
drawing down funds.




                                            6                              Single Audit QCR
                                                                        Puerto Rico HROCD
                                                             Report Number: 18-10-008-03-390
                                           U.S. Department of Labor – Office of Inspector General


Criteria related to (1) the requirements of the Cash Management Improvement Act, (2)
ETA’s policies on cash management for grant recipients, and (3) auditor’s reporting
responsibilities found in Statements on Auditing Standards (SAS) can be found in the
Exhibit of this report.

The Council included a statement in its notes that it followed a policy of recording
revenue when funds were available (i.e. expected to be collected soon after year
end to pay current liabilities) and that most expenditures were recorded when the
related governmental fund liability was incurred. Therefore, readers of the
auditor’s report could conclude that the $212 million reported as a receivable
from DOL would mean the Council had that amount in current liabilities that it
expected to pay soon after year end. The reader could also conclude that the
$140 million reported as amounts payable to subrecipients would indicate
subrecipients had incurred that amount in current liabilities that they expected to
pay soon after year end.

The Council improperly reported all grant awards — including the ARRA grants
— that would be available for drawdown over the next 12 to 36 months in
accounts receivable and revenue at year end. Therefore, the reader of the
auditor’s report could conclude that the $88 million in ARRA funds awarded
during the year was needed to pay ARRA-related current liabilities at June 30,
2009. However, according to the SEFA, only about $7 million in ARRA funds was
reported as expended from March 2009 — the time the ARRA grant was issued
and placed in PMS — through June 30, 2009. Of that amount, the Firm provided
information that shows the Council had paid out approximately $4.6 million and
had accounts payable of about $2.4 million at June 30, 2009. This misreporting
of the use of ARRA funds is significant given the focus on transparency and the
need to use the funds to help stimulate economic recovery.

The 2007 letter the Firm sent to GASB stated the Council had instructed 15
subrecipients who received WIA funds to adopt the Council’s interpretation for
reporting WIA activity in their financial statements. Based on information provided
by the Firm and our review of one of the subrecipient’s financial statements, we
determined the subrecipients receiving WIA funds also used the same
recognition methodology as the Council. Using this methodology would result in
the misstatement of revenue, expenditures and related accounts for WIA funds in
the 15 subrecipients’ financial statements.

By not identifying and reporting a material misstatement in the Council’s financial
statements, the Firm did not ensure users of the financial statements could reach
appropriate conclusions. For example, auditors for the Commonwealth of Puerto Rico’s
(Puerto Rico) financial statements for the year ended June 30, 2008, stated that the
Council’s financial information had been included in the Puerto Rico financial
statements. They further stated they had not audited the information but rather relied on
the opinion of the Council’s auditors.


                                             7                             Single Audit QCR
                                                                        Puerto Rico HROCD
                                                             Report Number: 18-10-008-03-390
                                            U.S. Department of Labor – Office of Inspector General


AU §561 of the Codification of SAS and GAS 5.26 through 5.31 provides
procedures auditors should follow when they become aware of new information
that could have affected their opinion on previously-issued financial statements.
These procedures include notifying the auditee of the conditions that might
require a restatement of previously-issued statements, reporting on restated
financial statements, and notifying users of the previously-issued statements.

2. 	 The Firm did not identify a material misapplication of A-133
     requirements for reporting payments to subrecipients in the SEFA that
     would have required it to modify its opinion and report a material
     weakness finding.

The Firm incorrectly reported that the information in the SEFA was fairly stated.
Based on information provided by the Firm, we found the Council incorrectly
included a material amount of accounts payable to subrecipients in its reported
expenditures.

This occurred because the Firm did not properly apply guidance contained in the
AICPA Guide - Government Auditing Standards and Circular A-133 Audits (Audit
Guide) in determining when amounts that passed through to subrecipients were
considered expended and reportable in the SEFA. The Firm did not understand
this requirement; and therefore, was not aware of the need to discuss the matter
with the Council or modify its opinion on the SEFA. As a result of the Firm not
identifying this reporting error, it did not issue a finding of a material weakness in
internal control over financial reporting and compliance, and did not include a
finding in the Schedule of Findings and Questioned Costs. Because this was not
done, users of the auditor’s report could reach incorrect conclusions on the
amount of WIA funds actually expended during the year.

The Firm said the reason it believed the SEFA was fairly stated was because it
had contacted the AICPA’s Government Quality Center Technical Assistance
Hotline for an interpretation of the Audit Guide and was told the SEFA should
include accounts payable to subrecipients. The Firm did not document this
communication with the AICPA.

The Audit Guide states that amounts passed through to subrecipients are
considered expended when a disbursement is made to the subrecipient.
Therefore, the Firm should have notified the Council to adjust the SEFA by
removing the accounts payable amounts that had been improperly included as
expenditures.

AU §551.09 of the Codification of SAS provides the auditor’s responsibility for
reporting on information accompanying the basic financial statements:




                                              8                             Single Audit QCR
                                                                         Puerto Rico HROCD
                                                              Report Number: 18-10-008-03-390
                                           U.S. Department of Labor – Office of Inspector General


       If the auditor concludes, on the basis of facts known to him, that any
       accompanying information is materially misstated in relation to the basic
       financial statements taken as a whole, he should discuss the matter with
       the client and purpose appropriate revision of the accompanying
       information. If the client will not agree to revision of the accompanying
       information, the auditor should either modify his report on the
       accompanying information and describe the misstatement or refuse to
       include the information in the document.

The Council’s presentation of the SEFA was overstated by approximately $4.5
million, including about $1 million in ARRA funding, out of total reported
expenditures of $143 million. Based on information included in the Firm’s audit
documentation, an overstatement of this amount is a material misstatement.

The Firm’s lack of understanding of requirements for amounts presented in the SEFA
resulted in its incorrect assurance that the SEFA could be relied on. Council
management and others who use the Council’s financial statements to make important
decisions would have been unaware of the reported information’s lack of quality. As
noted in finding 1, this could affect the opinion expressed by Puerto Rico’s auditor on
Puerto Rico’s SEFA.

3. The Firm did not perform necessary procedures to ensure all significant
    information presented in the MD&A was consistent with the information
    reported in the basic financial statements and significant footnote disclosures
    were accurate, clear, and complete.

We found the Firm’s quality control review process was not effective in evaluating the
Council’s assertion that information presented in the MD&A was accurate and
consistent with the financial statements. In addition, the Firm did not identify unclear and
contradictory information that was included in the financial statement notes, and
conversely, required GAAP disclosures that were omitted from the notes.

MD&A information was not consistent with the financial statements and
contained inaccurate information.

Our review of the Council’s MD&A and financial statements found inconsistent and
inaccurate information that the Firm did not identify and report. Examples are as follows:

   •	 The MD&A had the following statement, “At the end of the fiscal year, unreserved
      fund balance for the WIA Fund was $65,926,890.” However, the WIA Fund in the
      Council’s Governmental Fund Balance Sheet at June 30, 2009 showed that
      amount as reserved funds.
   •	 The Council presented information in the MD&A that the Statement of Net Assets
      included unrestricted net assets of $64,692,000. The Statement of Net Assets
      reported that amount was restricted.


                                             9                             Single Audit QCR
                                                                        Puerto Rico HROCD
                                                             Report Number: 18-10-008-03-390
                                          U.S. Department of Labor – Office of Inspector General



   •	 The MD&A reported, “Expenditures also increased due to the recognition of the
      total award of the ARRA-WIA funding to local areas in accordance with USDOL
      funds availability.” In our discussions with the Firm, we found that not all ARRA
      funds were allocated to local areas.

Financial statement notes were contradictory, unclear and in some cases
inaccurate.

The Council’s financial statement notes included contradictory information in the
summary of significant accounting policies — governmental funds financial statements
(GFFS). The information presented did not agree with the Council’s actual practices.
For example:

   •	 Note 2.B –GFFS
      •	 Paragraph 1 stated, “The GFFS are reported using the current financial
         resources measurement focus and the modified accrual basis of accounting.
         Revenues are recognized as soon as they are both measurable and
         available. Revenues are considered to be available when they are collectible
         within the current period or soon enough thereafter to pay liabilities of the
         current period.” This correctly quotes the revenue recognition policy found in
         GASBS 33; however, the Council did not follow that policy when reporting
         WIA grant funds. The Council recorded revenue for grants as soon as the
         grant was issued and the funds had been placed in the PMS in the Council’s
         name.

      •	 Paragraph 2 stated the Council reported that it would recognize receivables
         and revenue when applicable eligibility requirements were met. Although this
         is a standard in GASBS 33, it applies to entities who report revenue using the
         accrual basis of accounting. The Council is required to use the modified
         accrual basis of accounting. The modified accrual basis of accounting
         requires the Council to recognize revenue as stated above in paragraph 1 of
         note 2.B.

      •	 Paragraph 3 reported that the Council used a third method for recognizing
         revenue for grant funds. It states, “For the majority of grants, moneys must be
         expended by the Council on the specific purpose or project before any
         amounts will be reimbursed. Revenue, is therefore, recognized as
         expenditures are incurred to the extent available.” Because WIA makes up a
         majority of the Council’s grant expenditures for the year ended June 30, 2009,
         this paragraph would apply to those funds.

      •	 Note 4 stated, “As of June 30, 2009, the Council had an accounts receivable
         from the Federal awarding agencies for allowable program expenditures
         incurred. The balance due to the Council by the Federal agencies consists of
         Accounts Receivable from the US Department of Labor of $212,208,417.”


                                           10                             Single Audit QCR
                                                                       Puerto Rico HROCD
                                                            Report Number: 18-10-008-03-390
                                           U.S. Department of Labor – Office of Inspector General


          According to information provided by the Firm, the receivable from DOL was
          based on the Council meeting all eligibility requirements and not on whether
          the Council had incurred liabilities that would be paid soon after year end.
          Therefore, this statement was not accurate.

Financial statement notes were not complete.

GASB Statement 38 requires recipients issuing GFFS to disclose the length of time
used to define “available for purposes of revenue recognition — the Council did not
disclose that information. The Firm did not identify the omission and, as a result, it was
not reported as an internal control finding.

The Firm explained it did not believe the information in the MD&A and notes was
inconsistent or inaccurate. The Firm said it was in compliance with the quality control
documents that were adopted from a commercial vendor’s practice aids, including
checklists necessary for compliance with professional standards. It said the checklists
did not require a detailed evaluation of the MD&A wording. The Firm also said that when
major funds are presented with separate columns in the GFFS, the use of Unreserved is
permitted in substitution of Reserved because separate columns implies the reservation
of funds. The Firm also stated Exhibit C-1 and C-2 of GASBS 34 included support for its
position.

The Firm did not provide an explanation for why the notes included contradictory
information and omitted required disclosures.

AU §558.07 of the Codification of SAS states that if supplementary information (such as
the MD&A) is required, one of the procedures the auditor should apply is:

       b. Compare the information for consistency with (1) management’s
          responses to the auditor’s inquiries about the methods of preparing the
          information, (2) the audited financial statements, and (3) other
          knowledge obtained during the examination of the financial statements.

Section 1800.145 of the Codification of Governmental Accounting and Financial
Reporting Standards (Codification), regarding presentation of reserved and unreserved
fund balance reporting, states:

       Reserves should be reported in the “Fund Balance” section of
       governmental fund balance sheets, not as liabilities or between liabilities
       and fund balance. The “Fund Balance” section may be subdivided
       between or among its reserved and unreserved components, or separate
       “Reserved Fund Balance” and “Unreserved Fund Balance” section may be
       used.

Exhibits C-1 and C-2 of GASB Statement 34 found in Section 2200.915 of the
Codification clearly distinguish between reserved and unreserved fund balances.

                                            11                             Single Audit QCR
                                                                        Puerto Rico HROCD
                                                             Report Number: 18-10-008-03-390
                                           U.S. Department of Labor – Office of Inspector General




Section 2300.102 of the Codification regarding “Notes to Financial Statements”, states:

      The notes to the financial statements should communicate information
      essential for fair presentation of the basic financial statements that is not
      displayed on the face of the financial statements. As such, the notes form
      an integral part of the basic financial statements. Notes should focus on
      the primary government – specifically its government activities, business-
      type activities, major funds, and nonmajor funds in the aggregate. . . .

Section 2300.106 of the Codification, states:

      Notes to the financial statements essential to fair presentation in the basic
      financial statements include: a. Summary of significant accounting
      policies, including . . . (5) The revenue recognition policies used in fund
      financial statements, including the length of time used to define available
      for purposes of revenue recognition in the governmental fund financial
      statements. . . .

By not identifying inconsistent and inaccurate information in the Council’s MD&A, as
well as contradictory and inaccurate information and omitted disclosures in the notes to
the financial statements, the Firm did not provide the Council information it needed to
make necessary corrections to its financial statements and required supplementary
information (MD&A). In addition, by not identifying and reporting the MD&A and financial
statement notes weaknesses, the Firm did not provide other users of the financial
statements the information they might need to accurately assess the Council’s financial
statements.

Conclusion

The Firm had a responsibility to provide assurance to those who relied on its opinion
and the information reported in the financial statements that the financial statements
were accurate and fairly presented. The audit work the Firm performed on the Council’s
financial statements and SEFA was not acceptable and did not meet the requirements
of the Act, A-133, GAS, and GAAS. As a result, the Firm left users of the Council’s
financial statements and accompanying information at risk of relying on materially
inaccurate information for decision-making purposes.


Recommendations

We recommend the Firm:

   1. Follow AU §561 of the Codification of SAS and GAS 5.26 through 5.31 related to
      subsequent discovery of facts existing at the date of the auditor’s report to


                                            12                             Single Audit QCR
                                                                        Puerto Rico HROCD
                                                             Report Number: 18-10-008-03-390
                                           U.S. Department of Labor – Office of Inspector General


      ensure users of the Council’s financial statements are aware of the reporting
      errors. This would include issuing the appropriate opinion on the financial
      statements and accompanying information based on whether or not the entity
      amends the statements and information, and reporting the appropriate findings
      noted in this report.

   2. Ensure proper reporting in accordance with the SAS on the inaccurate and
      inconsistent information presented in the MD&A.

   3. Provide additional training in relevant GAAP, auditing standards, and overall
      report quality control processes to Firm supervisory and management personnel
      responsible for audits related to entities required to report under the Single Audit
      Act.

   4. Submit a revised reporting package to the Federal Audit Clearinghouse.


Firm’s Response

The Firm agreed to comply with the pertinent sections of AU §561 and GAS and notify
the Council to make the appropriate disclosures. The Firm will also perform research of
AICPA guidance related to the recommendations. Upon the Council restating the
financial statements and other related matters the Firm will proceed to perform the
additional auditing procedures required by professional standards and issue its reports.

The Firm also said it complies with the Continuing Professional Education (CPE)
required by the standards and key staff recently attended an AICPA Accounting and
Auditing Update Conference that included Single Audit. The Firm will also look for new
CPE offered by the Governmental Audit Quality Center and the Puerto Rico Society of
Certified Public Accountants. See Appendix D for the Firm’s complete response to our
draft report.




                                            13                             Single Audit QCR
                                                                        Puerto Rico HROCD
                                                             Report Number: 18-10-008-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              14                             Single Audit QCR
                                          Puerto Rico HROCD
                               Report Number: 18-10-008-03-390
            U.S. Department of Labor – Office of Inspector General




Exhibit 





             15                             Single Audit QCR
                                         Puerto Rico HROCD
                              Report Number: 18-10-008-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              16                             Single Audit QCR
                                          Puerto Rico HROCD
                               Report Number: 18-10-008-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                       Exhibit

Additional Accounting and Auditing Criteria for Finding 1

CMIA, Section 6503, “Intergovernmental Financing”, requires states to minimize the
time elapsing between transfer of funds from the United States Treasury and the
issuance or redemption of checks, warrants, or payments by other means for program
purposes.

In Chapter II-2, “Financial Management Systems”, of its “O n e – S t o p Comprehensive
Financial Management Technical Assistance Guide” (TAG) issued by the U.S.
Department of Labor Employment and Training Administration Office of Grants and
Contract Management Division of Financial and Grants in July 2002, financial
management system standards included in 29 CFR 97.20(b) are provided. One of the
standards is cash management. This standard explains that procedures for minimizing
the time elapsing between the transfer of funds from the U.S. Treasury and
disbursement by grantees must be followed whenever advance payment procedures
are used. When advances are made by Payment Management System
(PMS)/electronic transfer of funds (ETF) methods, the grantee must forecast cash
needs to ensure that cash is received as close as possible to the time of actual
disbursement. Grantees must also monitor the cash received by their subgrantees to
minimize cash on hand. In addition, they must ensure that the subgrantees’ cash
management procedures conform substantially to the same standards of timing and
amount that apply to the awarding entity. In Chapter II-6, Cash Management there is a
further discussion of the cash management requirements.

Chapter II-6-3 of the TAG states that ETA requires that subrecipients obtain funds from
their awarding agency as needed for disbursement. Transfers of cash from an awarding
agency to a subrecipient should conform to the same standards of timing and amount
as set forth for transfers from Federal agencies to recipients, as is required by both 29
CFR 97.21 and 95.22. To receive cash advances, subrecipients must demonstrate that
they will maintain procedures that support Federal cash management requirements.
These procedures are necessary to effectively minimize cash on hand at the
subrecipient level and to allow for the expeditious transfer of cash. Subrecipients are
encouraged to use zero balance accounting, estimated clearance, or average clearance
cash management techniques.

In Attachment II-6-1 of the TAG funding techniques that can be used by grantees and
subgrantees are presented. One such technique is Zero Balance Accounting. Under this
technique a recipient requests funds, and the agency deposits funds in a State account
on the same day that program funds are paid out by the State. Under this arrangement,
the account balance is always zero. This technique applies to subrecipients also. A
subrecipient requests funds equal to the amount paid out, and the State agency
deposits the same amount in the subrecipient account on the same day program
payments are made. Footnote 7 of the Council’s financial statements states that the
Council uses the zero balance accounting funding technique.

                                           17                             Single Audit QCR
                                                                       Puerto Rico HROCD
                                                            Report Number: 18-10-008-03-390
                                          U.S. Department of Labor – Office of Inspector General




AU §508.35 of the Codification of SAS issued by the AICPA, states:

      When financial statements are materially affected by a departure from
      generally accepted accounting principles and the auditor had audited the
      statements in accordance with generally accepted auditing standards, he
      or she should express a qualified or an adverse opinion. The basis for
      such opinion should be stated in the report.

AU §325A.18 of the Codification of SAS issued by the AICPA, states:

      Deficiencies in controls over the selection and application of accounting
      principles that are in conformity with generally accepted accounting
      principles are at least a significant deficiency in internal control.




                                           18                             Single Audit QCR
                                                                       Puerto Rico HROCD
                                                            Report Number: 18-10-008-03-390
               U.S. Department of Labor – Office of Inspector General




Appendices 





                19                             Single Audit QCR
                                            Puerto Rico HROCD
                                 Report Number: 18-10-008-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              20                             Single Audit QCR
                                          Puerto Rico HROCD
                               Report Number: 18-10-008-03-390
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

The Single Audit Act of 1984 established consistent and uniform entity-wide audit
requirements for state and local governments receiving Federal financial assistance. The
single audit is the primary mechanism used by Federal agencies to ensure accountability
for Federal awards. Audits performed under the Single Audit Act are intended to satisfy all
Federal agencies providing assistance to the entity. The act was amended in 1996 by
Public Law 104-156, raising the threshold for single audit to $300,000 in Federal
assistance. The June 27, 2003, revision to A-133 raised this threshold to $500,000 for fiscal
years ending after December 31, 2003.

QCRs are performed to provide evidence of the reliability of single audits to the auditors of
Federal agency financial statements, such as those required by the Chief Financial Officers
Act, those responsible for the programs, and others. We performed a QCR of the single
audit of the Human Resources and Occupational Development Council, Financial
Statements, SEFA, Reports Required by GAS and A-133 for Year Ended June 30, 2009.

The Human Resources and Occupational Development Council (formerly Technological
Occupational Education Council) was created by Law Number 97 on December 18, 1991.
The Council has the responsibility of the administration, support, and inspection of the
financial accountability, monitoring evaluation, and program operation of all subrecipients
benefiting from Workforce Investment Act funds. The Council is a component unit of the
Department of Labor and Human Resources of the Commonwealth of Puerto Rico.
However, the Council’s financial statements present the financial position of governmental
activities, each major fund, and the aggregate remaining fund information and the effect
revenues and expenditures has on the net assets of the Council and not activities of the
Commonwealth of Puerto Rico.

For the year ending June 30, 2009, the Council reported expenditures totaling about $143
million in Federal funds which was attributable to DOL. A majority of those expenditures
(about $142 million) were Workforce Investment Act expenditures. During the audit period
the Council was awarded $92 million in ARRA funds that were to be spent expeditiously
and effectively, with full transparency and accountability in the expenditure of funds. The
grant agreement stated the funds were intended to supplement, not supplant existing WIA
Title I State formula funds.

The Council provides pass-through WIA grant funds to 15 state authorized subrecipients.
In addition, the Council provides contract funding to other entities to carry out the WIA
program. The Council maintains a portion of the WIA grant funds to administer the
program, including monitoring of subrecipients’ use of those funds.

ARRA requires agencies to implement an unprecedented level of transparency and
accountability to ensure the public can see where and how their tax dollars are being
spent. The Recovery Accountability and Transparency Board, was established by ARRA,

                                            21                              Single Audit QCR
                                                                         Puerto Rico HROCD
                                                              Report Number: 18-10-008-03-390
                                          U.S. Department of Labor – Office of Inspector General


Congress, and the Office of Management and Budget to oversee and monitor
implementation of ARRA through periodic reporting on the use and expenditure of funds.
We are required by ARRA, Title XV Accountability and Transparency, Subtitle A –
Transparency and Oversight Requirements, Section 1514 Inspector General Reviews, to
post this report on our website www.oig.dol.gov and link to the Recovery Accountability
and Transparency Board’s website www.recovery.gov.




                                           22                             Single Audit QCR
                                                                       Puerto Rico HROCD
                                                            Report Number: 18-10-008-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                           Appendix B
Objectives, Scope, Methodology and Criteria

Objectives

Our objectives were to determine whether (1) the audit was conducted in accordance with
applicable standards and met the single audit requirements, (2) any follow-up work is
needed, and (3) there are any issues that may require management’s attention.

To address these objectives we answered the following question:

Did the Firm’s single audit comply with applicable standards and single audit
requirements so that no follow-up work or management’s attention would be needed?

Scope

We performed a QCR of the single audit of the Human Resources and Occupational
Development Council, Financial Statements, SEFA, Reports Required by GAS and A-133
for the Year Ended June 30, 2009, at the offices of the Firm located at 201 Gautier
Benitez Ave., Consolidated Mall C-31, Caguas, Puerto Rico.

Our review included the following major programs:

Table 1: DOL Major Programs Reviewed
                                                                       DOL Funds
                                                                      Reported as
Major Program                                              CFDA         Expended
WIA Cluster                                               17.258     $134,394,693
                                                          17.259
                                                          17.260
ARRA – WIA Cluster                                        17.258        $7,180,552
                                                          17.259
                                                          17.260
Total DOL WIA Funds Reported As Expended                             $141,575,245

Methodology

Using the President’s Council on Integrity and Efficiency Uniform QCR Guide for A-133
Audits, we reviewed audit documentation and held discussions with the Firm’s president
and audit manager to accomplish the required steps. The Guide was developed to test for
compliance with GAS general and fieldwork standards and A-133 requirements.
Specifically, we reviewed:
   • Financial Statements and Related Notes
   • SEFA

                                          23                              Single Audit QCR
                                                                       Puerto Rico HROCD
                                                            Report Number: 18-10-008-03-390
                                            U.S. Department of Labor – Office of Inspector General



   •   Independent Auditors’ Reports
   •   MD&A
   •   Competence
   •   Independence
   •   Professional Judgment
   •   Quality Control
   •   Planning and Supervision
   •   Management Representations
   •   Litigation, Claims and Assessments
   •   Possible Fraud or Illegal Acts
   •   Determination of Major Programs
   •   Schedule of Expenditures of Federal Awards
   •   Audit Follow up
   •   Reporting
   •   Internal Control Over Major Programs
   •   Data Collection Form

We also reviewed the Firm’s peer review applicable to the period of the audit.

Criteria

AICPA Audit Guide Government Auditing Standards and A-133 Audits

AICPA Codification of Statements of Auditing Standards

American Recovery and Reinvestment Act

Code of Federal Regulations

Government Auditing Standards

Governmental Accounting Standard Board’s Codification of Governmental Accounting
and Financial Reporting Standards

Guidance on Generally Accepted Government Auditing Standards Requirements for
Continuing Professional Education

OMB Circular A-133

Single Audit Act of 1984

Single Audit Act Amendments of 1996

Workforce Investment Act Program Annual Funding Agreements


                                            24                              Single Audit QCR
                                                                         Puerto Rico HROCD
                                                              Report Number: 18-10-008-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix C
Acronyms and Abbreviations

A-133       Office of Management and Budget Circular A-133

AICPA       American Institute of Certified Public Accountants

Audit Guide AICPA Guide - Government Auditing Standards and Circular A-133 Audits

CFDA        Catalog of Federal Domestic Assistance

CMIA        Cash Management Improvement Act

Codification Codification of Governmental Accounting and Financial Reporting Standards

Council     Human Resources and Occupational Development Council

DOL         Department of Labor

ETA         Employment and Training Administration

Firm        CPA Diaz-Martinez, PSC

GAS         Government Auditing Standards

GAAS        Generally Accepted Auditing Standards

GASB        Governmental Accounting Standards Board

GASBS       Governmental Accounting Standards Board Statement

GFFS        Governmental Funds Financial Statements

MD&A        Management Discussion and Analysis

OIG         Office of Inspector General

OMB         Office of Management and Budget

PMS         Payment Management System

QCR         Quality Control Review

SAS         Statements on Auditing Standards

SEFA        Schedule of Expenditures of Federal Awards

                                          25                              Single Audit QCR
                                                                       Puerto Rico HROCD
                                                            Report Number: 18-10-008-03-390
              U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              26                              Single Audit QCR
                                           Puerto Rico HROCD
                                Report Number: 18-10-008-03-390
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix D
Independent Accountant Response to Draft Report




                                     27                              Single Audit QCR
                                                                  Puerto Rico HROCD
                                                       Report Number: 18-10-008-03-390
U.S. Department of Labor – Office of Inspector General




28                              Single Audit QCR
                             Puerto Rico HROCD
                  Report Number: 18-10-008-03-390
